National Aeronautics and Space Administration

Office of Inspector General
Washington, DC 20546-0001




                                                March 23, 2010


TO:           Elizabeth Robinson
              Chief Financial Officer


FROM:         Paul K. Martin /signed/
              Inspector General


SUBJECT: Final Memorandum on the Analysis of Fiscal Year 2009 NASA-Sponsored
         Conferences (Report No. IG-10-009; Assignment No. A-09-019-00)


The Office of Inspector General (OIG) conducted an analysis of NASA’s reports for the
first quarter of FY 2009 of NASA-sponsored conferences with costs exceeding $20,000.
Our objectives were to determine whether NASA complied with requirements of the
NASA Authorization Act of 2008 (Public Law 110-422), complied with the General
Services Administration (GSA) Federal Travel Regulation (FTR), and adhered to NASA
internal guidance on minimizing conference costs. (See Enclosure 1 for details on our
scope and methodology.)

Executive Summary

NASA needs to improve its implementation of Federal guidelines and NASA policies and
requirements for planning conferences. We found that conference planners did not
complete cost comparisons of at least three facilities correctly, did not select conference
locations in close proximity to NASA Centers, and did not fully consider Government
facilities when evaluating locations.

We also found that the costs for food and beverages provided at the conferences were
excessive and that NASA management could reduce conference costs for local attendees.
For example, the light refreshment costs for one annual conference totaled $62,611 or
$66 per day per attendee – more than the daily amount permitted for meals and incidental
expenses in the conference city. The types of refreshments provided included soda,
coffee, fruit, bagels, and cookies.

Finally, NASA conference-planning officials and contracted event planners could not
provide us with all of the supporting documentation for conference-related activities and
expenses prior to completion of our audit work. The inability to provide this information
calls into question the quality and completeness of NASA’s conference record keeping.
                                                                                          2



Our March 1, 2010, draft of this memorandum recommended specific steps that NASA
could take to improve conference planning guidance for NASA employees, including
contracting officers, contracting officers’ technical representatives, and contractor
employees, to facilitate cost-effective decision making in site selections. Additionally,
we recommended that the CFO provide guidance – similar to other Federal Government
agencies – regarding how to determine the reasonableness of light refreshment expenses
and to keep the cost of meals at conferences within the established requirements. We also
recommended that NASA consider reducing conference costs by not having local
participants lodge at the conference facility. Finally, we recommended that the CFO
emphasize the importance of maintaining readily accessible documentation supporting
conference costs.

Management’s comments on the draft of this memorandum are responsive (see
Enclosure 2) and we will close the recommendations upon completion and verification of
management’s corrective action.

Background

The NASA Authorization Act of 2008 requires NASA to submit quarterly reports to the
OIG on costs and contracting procedures used for FY 2009 NASA-sponsored conferences
with costs exceeding $20,000. For each such conference, NASA must report the purpose
of the conference and provide information on the number of conference attendees, a
detailed statement of the conference costs, and a description of the contracting procedures
used to carry out the event. The description of contracting procedures must note whether
NASA awarded contracts on a competitive basis and discuss any cost comparisons
conducted. The Consolidated Appropriations Act of 2008 (Public Law 110-161) required
the OIG to analyze NASA’s quarterly reports for FY 2008 and to provide a report, with
recommendations as necessary, to the House and Senate Appropriations Committees.

Our analysis of NASA’s quarterly reports for FY 2009 was limited in scope because we
only received NASA’s report for first quarter conferences (October through December
2008) with costs exceeding $20,000. The report, which we received August 7, 2009,
noted that no reportable conferences were held during the second quarter of FY 2009. As
of December 31, 2009, NASA had not provided reports for the third and fourth quarters
of FY 2009.

All eight of the conferences that NASA reported for the first quarter of FY 2009 (listed in
Table 1) occurred before NASA had implemented any corrective actions based on the
OIG report, “NASA’s Conference Planning Process Needs Improvement” (IG-09-002,
October 29, 2008).
                                                                                                           3



                            Table 1. NASA-Reported Conferences for FY 2009
                                       (as of December 31, 2009)

                                                                                  Number of
       Conference Name                       Dates                 Location       Attendees   Total Costs
Aerospace Battery                     Nov. 18–20, 2008         Huntsville, AL      126          $ 31,816
  Workshop
Aviation Safety Technical             Oct. 21–23, 2008         Denver, CO          311          260,096
  Conference
CLARREOa Workshop                     Oct. 21–23, 2008         Washington, DC      112           75,696
Earth Science Data Systems            Oct. 21–23, 2008         Philadelphia, PA     90           79,085
  Working Group
First Annual NASA/JPL                 Nov. 17–18, 2008         Washington, DC      357           76,318
   Small Business
   Symposium and Awards
   Ceremony
Fundamental Aeronautics               Oct. 6–9, 2008           Atlanta, GA         650          535,149
  Program Annual Review
Futures Forum                         Oct. 10, 2008            Chicago, IL         244           68,113
Procurement Training                  Dec. 7–10, 2008b         Baltimore, MD       317          495,173
  Conference
                                                                                              $1,621,446
a
    Climate Absolute Radiance and Refractivity Observatory.
b
    These dates include a day for a reception held before the conference.



We focused our detailed analysis on the Procurement Training and Fundamental
Aeronautics Program conferences, which accounted for 65 percent of the total costs
incurred. We also examined cost comparisons of potential conference facilities for the
other six conferences. (See Finding A for the results of our additional analysis.)

For the two conferences we examined in detail, NASA relied on contracted event
planners to perform conference-planning services such as finding a hotel that met the
sponsoring organization’s requirements, arranging and negotiating snack and meal costs,
conducting on-site registration, and printing and providing handout materials. When
using a contractor to provide conference-planning services, the contracted event planner
and the responsible NASA conference-planning official agree on a cost proposal that
identifies services to be provided and the total cost of those services. The NASA
conference-planning official then completes the “NASA Sponsored Conference –
                                                                                                                 4



   Approval to Conduct” form, which must be approved by the appropriate Official-in-
   Charge or Center Director. 1

   Thirty days after the end of the quarter when a conference occurs, the NASA conference-
   planning official is required to submit the actual costs incurred and have documented
   support for the costs available for the Office of the Chief Financial Officer (OCFO).
   During January 2009, NASA published NASA Form 1785, “NASA Sponsored
   Conference Reporting,” for reporting costs of conferences held during 2009. NASA
   requested, but did not require, that conferences held during the first quarter of FY 2009
   (October–December 2008) use NASA Form 1785. Form 1785 requests information such
   as actual costs and contract information that NASA needs to prepare the required
   quarterly and annual reports.

Subsequent Events

   On December 16, 2009, Congress enacted Public Law 111-117, the Consolidated
   Appropriations Act of 2010. The conference reporting requirements established in the
   Consolidated Appropriations Act of 2008, the NASA Authorization Act of 2008, and the
   Omnibus Appropriations Act of 2009 do not apply to fiscal year 2010. Specifically, the
   Act contains no requirement that NASA submit quarterly reports to the OIG for NASA-
   sponsored conferences with costs exceeding $20,000 and no requirement that the OIG
   report on those conferences. Due to the change in conference reporting requirements for
   fiscal year 2010, the recommendations provided to NASA management in this report
   focus on improving implementation of Federal guidelines and NASA’s policies for
   planning conferences, improving or clarifying NASA policies and procedures, and
   improving the retention of related documentation.

Finding A: Conference Planning Activities Need Improvement

   NASA needs to improve its implementation of Federal guidelines and NASA’s policies
   and requirements for planning NASA-sponsored conferences. When planning
   conferences, complete and accurate cost comparisons of conference locations and
   facilities are essential to making cost-effective decisions. During our analysis, we found
   that required comparisons of at least three facilities or locations for conferences were not
   always completed, the facilities selected for evaluation could have been closer to NASA
   Centers, and Government facilities were not fully considered during the site selection
   process. As a result, NASA may be spending more money than necessary when selecting
   conference sites.



   1
       The instructions for the form list the approval authorities as NASA Officials-in-Charge of Headquarters
       Offices and Center Directors (or their designees). Although this form was replaced in January 2009 by
       NASA Form 1784, “NASA Sponsored Conference Approval,” the approval forms for all of the
       conferences in our testing period should have been completed before January 2009.
                                                                                          5



Conference Planning Guidance

NASA is required to follow Agency and Federal requirements for planning and holding
Agency-sponsored conferences. Conference planning guidance is contained in GSA’s
FTR, NASA’s Financial Management Requirements (FMR), and a November 2005
memorandum from the NASA Administrator to Officials-in-Charge of Headquarters
Offices and Center Directors concerning planning Agency-sponsored events. During the
first quarter of FY 2009, NASA FMR Volume 12, “Travel,” was replaced by NASA
Procedural Requirements (NPR) 9700.1, “Travel,” September 30, 2008. Because the
conferences reported to the OIG were planned before September 30, 2008, and held
during the first quarter of FY 2009, we only refer to the FMR and not the NPR in this
report.

Federal Conference Planning Guidance. FTR § 301-74 and Appendix E provide
conference planning guidance for Federal agencies. The guidance states that when
planning a conference, agencies must minimize all conference costs, including
administrative costs and conference attendees’ travel costs. In addition, agencies must
maximize the use of Government-owned or Government-provided conference facilities.
Lastly, agencies must establish internal policies to ensure these standards are met. The
guidance also states that agencies should consider all direct and indirect conference costs
paid by the Government, whether paid directly by agencies or reimbursed by agencies to
travelers or others associated with the conference.

To determine which conference expenditures result in the greatest advantage to the
Government, the FTR states that agencies must provide assurance that there is appropriate
management oversight of the planning process. In addition, agencies must always
perform cost comparisons of the size, scope, and location of the proposed conference.
Moreover, for each conference an agency sponsors or funds in whole or in part for 30 or
more attendees, the agency must consider at least three sites and maintain a record of the
costs of each alternative site considered. A site refers to both the geographical location
and the specific facility. The FTR further states that these records must be made available
for inspection to the agency’s OIG or other interested parties.

NASA Conference Planning Guidance. NASA FMR, Volume 12, § 301-74, April
2005, clarifies the conference guidance provided in the FTR. It also requires the
preparation of the “NASA Sponsored Conference – Approval to Conduct” form. The
instructions for completing the form are online at the NASA Electronic Forms Web site,
linked to a form identified as GRC-634, “NASA Sponsored Conference – Approval to
Conduct.” The GRC-634 instructions direct those planning conferences to determine
estimated travel costs for all NASA conference attendees by including travel, meals and
incidental expenses (M&IE), lodging rates, and ground transportation costs. Planners are
also directed to estimate the costs associated with holding the conference and provide
                                                                                                               6



examples of such costs (e.g., meeting room costs, audiovisual equipment, light
refreshments, and printing). 2

NASA FMR, Volume 12, § 301-11, April 2005, includes information regarding NASA’s
local travel policy, stating: “No lodging or subsistence will be authorized within fifty (50)
miles of both the employee’s official duty station and the residence from which the
employee commutes to the official duty station.” The distance is reduced from 50 miles
to 25 miles for NASA employees stationed in the Washington, D.C., area.

With regard to selecting a conference location, the NASA Administrator issued a
memorandum on November 16, 2005, stating in part that

           Government-owned facilities, including NASA Centers, should be considered as event
           locations if suitable facilities are available. Sites within 25 miles of a NASA Center
           are preferable, since not all attendees would then require hotel accommodations.

           Aside from cost considerations, employees must be conscious of appearance concerns
           when selecting an event location. Selecting sites in exotic or resort destinations may
           create the appearance that the event is wasting Government resources in order to
           facilitate personal vacations or entertainment for employees. Employees should take
           care to select event locations that are cost justified, appropriate to the purpose of the
           event, and which minimize, to the greatest extent possible, any appearance of
           impropriety.


Information Provided on Conference Approval Forms Was Incomplete

The NASA Sponsored Conferences – Approval to Conduct form is intended to compare
an estimate of expected costs for potential conference sites and, at a minimum, include
the determination of adequacy of the facilities; overall convenience of the conference
locations; fees; local lodging and M&IE rates; availability of meeting space, equipment,
and supplies; and commuting distance of attendees. The form is designed to help ensure
compliance with conference planning guidance, to ensure that cost-effective decisions are
being made, and to ensure compliance with the NASA FMR.

Fundamental Aeronautics Program Annual Conference Held in Atlanta, Georgia,
October 6–9, 2008. We found that the Approval to Conduct form for this conference
was incomplete, although it had been signed by the appropriate NASA official. For two
of the potential conference facilities, the contracted event planner did not evaluate the
cost of the facility to provide services for the conference in the cost comparison because
those facilities were not available in the timeframe desired. The planner did not evaluate


2
    NASA Interim Directive (NID) 9312.2, “Requirements Relating to Conference Attendance, Obligations
    and Expenditures,” effective January 12, 2009, provides requirements applicable to conference-related
    obligations and costs, attendance at foreign conferences, and reporting on costs related to conferences that
    are reportable to Congress. It also establishes internal policies relating to conference reporting and
    compliance. Finally, it references as an authority NPR 9700.1, effective September 2008, which provides
    the financial management requirement for travel.
                                                                                          7



two replacement facilities with availability in order to perform a full cost evaluation
comparing three facilities.

None of the potential conference facilities considered was a Government facility. We
asked whether planners considered a Government facility and received a response from
management that “no NASA facility” would be able to meet the needs of the conference.
The evaluation of Government facilities should not have been limited to NASA facilities.
Additionally, we received no evidence or support of the evaluation of the NASA facilities
to assess whether they would meet the needs of the conference. Per the FTR, records of
this evaluation must be made available for inspection to the agency’s OIG or other
interested parties.

The potential conference facilities and the geographical locations considered were all
more than 50 miles from a NASA Center. As noted previously, a reduction in lodging
and M&IE costs for local attendees would have resulted if the conference had taken place
within 50 miles of a Center.

Procurement Training Conference Held in Baltimore, Maryland, December 7–10,
2008. None of the potential conference facilities considered for this conference was a
Government facility. Personnel in NASA’s Office of Procurement, which sponsored the
conference, stated that no Government facility would be able to meet the needs of the
conference. These needs included a room large enough to accommodate the entire
conference body of 300 attendees plus presenters, a minimum of eight breakout rooms
with a capacity to hold 35–50 people, and a site that was within reasonable proximity to a
major airport and eating facilities. As discussed previously, conference planning
guidance requires planners to consider Government facilities. We received no evidence
that the individuals planning this conference evaluated Government facilities to assess
whether any would meet the needs of the conference. According to the FTR, records of
this evaluation must be made available for inspection to the agency’s OIG or other
interested parties.

The Procurement Training Conference took place in Baltimore and the three conference
facilities considered were all more than 25 miles from a NASA Center. Again, as
discussed previously, a reduction of lodging and M&IE costs for local attendees would
have resulted if the conference had taken place within 25 miles of a Center. Additionally,
the event planner was directed in the Statement of Work to only consider Baltimore when
evaluating conference facilities. We were not provided any documentation regarding why
Baltimore was chosen over other geographical locations. Although selecting Baltimore
may have resulted in reduced air transportation costs due to the number of participants
from the D.C. area, a cost evaluation of other geographical locations would have
confirmed this determination. Absent an operational reason to hold the conference in
Baltimore, failure to consider other geographical locations may have increased the cost of
the conference.
                                                                                         8



Other Conferences. Based on our examination of the cost comparisons performed for
the two conferences we reviewed in detail, and considering the impact that not
performing a cost comparison could have on effectively and efficiently planning a
conference, we expanded our examination to the other six NASA conferences reported
for the first quarter of 2009. We examined each conference to determine whether cost
comparisons were accurate and complete. Our results are as follows:

   •   Aerospace Battery Workshop (November 18–20, 2008; Huntsville, Alabama). A
       memorandum describing the procedures followed in choosing the conference site
       that was most advantageous to the Government was included in the conference
       report. However, no cost data was provided in support of the site selection.

   •   Aviation Safety Technical Conference (October 21–23, 2008; Denver, Colorado).
       A memorandum was included in the conference report that identified the three
       sites considered in the cost comparison. However, the cost data for the categories
       used in the cost comparison was not provided.

   •   Climate Absolute Radiance and Refractivity Observatory (CLARREO) Workshop
       (October 21–23, 2008; Washington, D.C.). The cost comparison performed was
       incomplete because it failed to consider travel-related costs such as airfare, per
       diem, car rental, and local travel.

   •   Earth Science Data Systems Working Group (October 21–23, 2008; Philadelphia,
       Pennsylvania). Although five locations were considered, no cost comparisons
       were completed because four of the five potential locations were not available in
       the timeframe desired. Additionally, no estimate was made concerning travel-
       related costs.

   •   First Annual NASA/Jet Propulsion Laboratory (JPL) Small Business Symposium
       and Awards Ceremony (November 17–18, 2008; Washington, D.C.). We
       received no evidence of cost comparisons, although the NASA Office of Small
       Business Programs provided us with a memorandum noting that the office had no
       participation in the decisions regarding the selection of the contractor for this
       event. That selection was made by JPL. Although NASA conference planning
       guidance is applicable to JPL, we received no documentation in the conference
       report from JPL regarding cost comparisons performed. As such, we cannot
       determine whether JPL performed cost comparisons as part of the selection
       process when determining the conference location.

   •   Futures Forum (October 10, 2008; Chicago, Illinois). Because there was no
       charge for the site (Alder Planetarium), the Office of Communications Planning,
       which sponsored the conference, and the event planner concluded that an
       Approval to Conduct form was not necessary.
                                                                                            9



Conclusion

Our review of NASA conferences in the first quarter of FY 2009 found that NASA
conference planners and contracted event planners did not comply with conference
planning guidance and did not fully consider all alternatives in selecting conference sites.
As such, NASA officials and contractors were unable to show that they made the most
cost-effective decisions when choosing conference sites because the data they used was
incomplete.

As a result of the findings in the OIG report “NASA’s Conference Planning Process
Needs Improvement” (IG-09-002, October 29, 2008), NASA implemented NASA Interim
Directive (NID) 9312.2, “Requirements Relating to Conference Attendance, Obligations
and Expenditures and Instructions for completing the NASA Sponsored Conference
Approval and Reporting Forms,” in January 2009. While this Directive is not a
compendium of all relevant conference planning guidance, it does refer to available
guidance, including the FTR and the NASA Administrator’s memorandum of
November 16, 2005.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response

Recommendation 1. The NASA CFO should ensure that NASA employees and
contractors receive additional conference planning guidance before conference planning
commences. Specifically, we recommend that the CFO ensure that conference planners
and managers providing the approval to conduct a conference complete a full evaluation
of a minimum of three conference sites, including all of the required indirect and direct
costs.

   Management’s Response. The Deputy CFO concurred and said the CFO will
   strengthen the guidance in NASA Form 1784, “NASA Sponsored Conference
   Approval,” and its instructions.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 2. The NASA CFO should ensure that NASA employees and
contractors receive additional conference planning guidance before conference planning
commences. Specifically, we recommend that the CFO revise NASA Form 1784 to
include documentation of a planner’s consideration of Government facilities as a
potential conference location, as well as consideration of geographical locations within
50 miles of a NASA Center (or 25 miles in the Washington, D.C., area).

   Management’s Response. The Deputy CFO concurred, stating that as part of its
   revision of NASA Form 1784, NASA will require conference planners to document
                                                                                         10



   that Center sites have been considered and provide specific reasons if a non-Center
   site was selected.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 3. The NASA CFO should ensure that NASA employees and
contractors receive additional conference planning guidance before conference planning
commences. Specifically, we recommend that the CFO supplement existing guidance to
assist conference planners in considering NASA or other Federal Government facilities,
including providing a list of facilities and points of contact.

   Management’s Response. The Deputy CFO concurred, in part, and said the CFO
   plans to strengthen guidance requiring consideration of on-site facilities. However,
   the Deputy CFO stated that NASA is neither required nor equipped to maintain
   information on all Federal facilities that could be utilized for conferences, their
   characteristics, and availability. Instead, the Deputy CFO said NASA will forward
   our recommendation to the General Services Administration (GSA) and urge its full
   consideration.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. We agree that NASA may not be able to maintain information on Federal
   facilities on a nationwide basis, although each Center should be aware of Federal
   facilities near their locations that could be considered to host NASA conferences.
   More broadly, NASA’s planned action to forward our recommendation to GSA for
   consideration is responsive to the intent of our recommendation. Therefore, the
   recommendation is resolved and will be closed upon completion and verification of
   management’s corrective action.

Recommendation 4. The NASA CFO should ensure that NASA employees and
contractors receive additional conference planning guidance before conference planning
commences. Specifically, we recommend that the CFO update the NASA Conference
Resource Web site to centralize access to conference planning guidance. Specifically, in
addition to the link to NID 9312.2, links to the following items should be on the Web site:
       a. NASA Form 1784, “NASA Sponsored Conference Approval”;
       b. NASA Form 1785, “NASA Sponsored Conference Reporting”;
       c. Instructions for completing NASA Forms 1784 and 1785;
       d. NASA Administrator Memorandum, “Planning Agency-Sponsored Events,”
          November 16, 2005; and
       e. NPR 9700.1, “Travel.”
                                                                                                                   11



          Management’s Response. The Deputy CFO concurred and said NASA plans to
          make these links available at the NASA Conference Resource Web site.

          Evaluation of Management’s Response. Management’s planned action is
          responsive. The recommendation is resolved and will be closed upon completion and
          verification of management’s corrective action.

Finding B: Costs for Food and Beverages Are Excessive

   NASA incurred excessive costs for meals and light refreshments provided at NASA-
   sponsored conferences we reviewed in violation of FTR § 301, “Temporary Duty Travel
   Regulations,” Part 301-74 and Appendix E.

   Meals

   We found the costs for meals provided by NASA at the Fundamental Aeronautics
   Program Annual Conference excessive. According to Title 5, United States Code
   (U.S.C.), Section 5702, Federal agencies may use appropriated funds to pay subsistence
   costs of employees traveling on official business. To coordinate implementation of this
   rule, GSA annually establishes M&IE per diem rates to compensate Federal employees on
   travel status for the cost of meals during official travel. Unlike lodging, no allowance for
   additional costs for meals at a conference site is provided for in the FTR. 3 Additionally,
   the FTR notes that conference planners should “[w]ork closely with the hotel to plan
   quality menus that fit within authorized per diem rates.” NASA guidance does not
   address authorizing additional costs for meals provided at NASA-sponsored conferences.

   NASA provided meals at the Fundamental Aeronautics Program Annual Conference for
   all 650 attendees – 409 non-NASA attendees 4 and 241 NASA employees and contractors.

   Documentation (invoices) showed that NASA paid approximately $58,450 5 for the meals
   it provided (three breakfasts and one lunch per person). The M&IE rate for Atlanta,
   Georgia, where the conference was held is $9 for breakfast and $13 for lunch. Based on
   that rate, NASA should have spent no more than $26,000 for the meals. In addition,
   NASA could have saved nearly $50,000 if it had not included meals as part of the



   3
       FTR § 301-74.7 does allow for the costs for conference lodging to be “up to 25 percent greater than the
       applicable locality lodging portion of the per diem rate.”
   4
       GAO Decision, B-300836, “Matter of: National Institutes of Health – Food at Government-Sponsored
       Conferences,” March 2005, established that Federal agencies may pay for the meals and refreshments of
       non-Federal participants if specific criteria were met. We noted no evidence indicating that this
       conference did not meet the criteria.
   5
       The amount paid for providing meals to conference attendees was determined by adding all receipts
       associated with meals provided less a pro-rated credit provided by the hotel. For these calculations, the
       credit was pro-rated between the costs of meals and refreshment.
                                                                                                             12



conference, as the cost of paying NASA personnel and contractors the M&IE rate would
have been $9,640. Table 2 shows the potential savings of the two options.

                                 Table 2. Meals at the Atlanta Conference

     Description                                                             Cost         Potential Savings

     NASA-provided meals for all attendees (actual cost)                    $58,415

     Providing meals for all attendees at the local M&IE rate                 26,000          $32,415
     (estimated cost)

     Providing no meals for attendees, but paying M&IE to                      9,640            48,775
     NASA employees and contractors in attendance
     (estimated cost)



Light Refreshments

Similarly, we found the cost for the light refreshments for the Procurement Training and
Fundamental Aeronautics Program Annual conferences excessive. FTR § 304-74 allows
for agencies sponsoring a conference to provide light refreshments but do not include a
maximum allowable cost. As such, other Federal agencies have established agency-
specific guidance regarding the cost of light refreshments. For example, the
U.S. Department of Justice developed the “Office of Justice Programs Financial Guide
Part III, Chapter 7 (October 2009),” which states that “the cost of these items, plus any
hotel service costs, cannot exceed 23 percent of the locality meals and incidental
expenses (M&IE) rate per attendee per day.”

NASA has yet to provide guidance to aid conference planners to determine a reasonable
cost for light refreshments. As there is no specific guidance, the costs incurred,
regardless of the amount, are not out of compliance with the FTR or NASA policies;
however, we believe that a reasonable or prudent person would conclude that light
refreshments should be a small percentage of the allowable M&IE for the conference
location. The FAR, Subsection 31.201-3, states that “a cost is reasonable if, in its nature
and amount, it does not exceed that which would be incurred by a prudent person in the
conduct of competitive business.”

As shown in Table 3, the light refreshment costs for the Procurement Training and
Fundamental Aeronautics Program Annual conferences totaled about $62,611 and
$39,229, 6 respectively. The types of items provided included soda, coffee, fruit, bagels,

6
    The amount paid for providing light refreshments to conference attendees was determined by adding all
    receipts associated with light refreshments provided less a pro-rated credit applied by the hotel. For these
    calculations, the credit was pro-rated between the costs of meals and refreshments.
                                                                                       13



and cookies. The cost for these items for the Procurement Training Conference equaled
about $66 per day per attendee, which by itself is 112 percent of the $59 daily M&IE rate
for the location of the conference (Baltimore). The cost for these items for the
Fundamental Aeronautics Program Annual Conference equaled about $20 per day per
attendee, which is 41 percent of the $49 daily M&IE rate for the location of the
conference (Atlanta).

                           Table 3. Refreshment Costs per Attendee

                                                                        Fundamental
                                                 Procurement         Aeronautics Program
  Description                                 Training Conference     Annual Conference

  Total cost of refreshments                       $62,611                 $39,229

  Number of attendees                                  317                     650

  Cost per attendee (average)                         $198                     $60

  Number of days of conference                           3                       3

  Cost for refreshment per attendee per day            $66                     $20

  M&IE rate for the conference location                $59                     $49

  Percentage of M&IE rate
                                                     112%                     41%
    incurred for refreshments



Conclusion

Federal conference planners have a responsibility to critically assess and specifically
justify serving food and beverages at conferences paid for with public funds. To carry out
this responsibility, NASA should provide conference planners with clear and consistent
guidelines on when and to what extent food and beverages can be served. In addition,
NASA has not issued guidance defining reasonable costs for light refreshments at NASA-
sponsored conferences. We believe such guidance needs to include specific criteria to
gauge reasonableness in order to ensure that costs incurred are not excessive.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response

Recommendation 5. The NASA CFO should develop specific guidance regarding the
cost of food and beverages at NASA-sponsored conferences. Specifically, we
recommend that the CFO develop guidance that requires conference planners to consider
                                                                                        14



the reasonableness of costs for light refreshments provided at NASA-sponsored events,
to include
       a. requirements for performing an evaluation of the need to provide snacks and
          light refreshments, the frequency or amount of refreshments that are provided
          during the conference, and a total cost/cost per attendee analysis.
       b. limits on the cost per attendee per day for providing light refreshments similar
          to other agency’s guidance on light refreshments.
       c. oversight of the contracted event planners by NASA employees to
          communicate and verify compliance with NASA policies regarding the cost of
          food and beverages at a conference.

   Management’s Response. The Deputy CFO concurred, in part, stating that NASA’s
   practice in providing light refreshments has been in general compliance with the FTR
   and NASA internal regulations, and therefore he does not find it necessary for NASA
   to justify providing light refreshments in each case. However, NASA said it plans to
   update its conference planning guidance to
           •   emphasize the need to consider the frequency, amounts, and costs per
               person for light refreshments;
           •   define reasonable cost limits for providing such refreshments;
           •   require permission, in writing, justifying the reasons and estimated cost
               impacts for exceptions to the cost limits; and
           •   require NASA employees to communicate and verify compliance with
               NASA policies regarding the cost of food and beverages at a conference to
               the contracted event planners.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 6. The NASA CFO should develop specific guidance regarding the
cost of food and beverages at NASA-sponsored conferences. Specifically, we
recommend that the CFO direct that meals provided at NASA conferences should not
exceed the local M&IE. For times when the M&IE rate is not offered by the conference
facility, the CFO should have guidance that defines the appropriate costs for meals per
attendee at NASA-sponsored conferences and require conference planners to obtain
written approval for costs above a specific, pre-determined threshold.

   Management’s Response. The Deputy CFO concurred, stating that the guidance in
   the NF 1784 will be revised by setting a threshold for the cost of meals at NASA-
   sponsored conferences above which managerial approval is required.
                                                                                                   15



     Evaluation of Management’s Response. Management’s planned action is
     responsive. The recommendation is resolved and will be closed upon completion and
     verification of management’s corrective action.

Finding C: Conference Costs Could Have Been Reduced

  We found that the lodging and M&IE costs for the two conferences that we selected for
  detailed analysis could have been reduced. The Procurement Training Conference was
  held at a location just over 25 miles from the Goddard Space Flight Center (Goddard) and
  NASA Headquarters, and potentially less than 25 miles from the residence of some
  attendees. The NASA Administrator’s November 16, 2005, memorandum providing
  guidance on conference planning states: “Sites within 25 miles of a NASA Center are
  preferable, since not all attendees would then require hotel accommodations.”

  The NASA FMR’s NASA Federal Travel Regulations Supplement, “Temporary Duty
  Travel Regulations,” § 301-11.1, states:

         NASA’s local travel policy has been established as follows: No lodging or subsistence
         will be authorized within 50 miles of both the employee's official duty station and the
         residence from which the employee commutes to the official duty station. An
         exception is allowed for training purposes authorized by each Center's Training and
         Development Division as qualifying under 5 U.S.C. § 4109(2) and when it has been
         determined that overnight stays and attendance at meals are necessary in order to
         achieve the objectives of the training. Training funds must be used in these
         circumstances.

  The NASA FMR further limits the distance to 25 miles for employees stationed in the
  Washington, D.C., area. As such, if NASA had selected a conference site closer to
  Goddard or NASA Headquarters, costs for the local attendees could have been reduced
  because they would not have been eligible to receive reimbursement for lodging and
  M&IE.

  We attempted to determine whether any of the conference attendees resided within
  25 miles of the conference site. However, we encountered discrepancies between the
  travel expense reporting system, Travel Manager, and the OCFO data file that precluded
  this determination.

  NASA management noted that this conference was for training purposes and that having
  the conference attendees lodge at the conference site is “more conducive to group
  interaction and sharing ideas outside the formal training sessions.” The NASA
  Authorization Act of 2008 limited the spending on conferences in FY 2009 to $5 million.
  Although lodging at the conference center may encourage interaction, NASA should
  carefully balance this consideration against the spending limit on conferences provided in
  the NASA Authorization Act of 2008 and the need to be cost-effective with public funds.
  Each conference attendee staying for the full conference would have incurred
                                                                                                             16



  approximately $894 (excluding transportation costs) in reimbursable travel. 7 NASA
  reported that 67 of the 317 attendees at the conference were from Goddard and NASA
  Headquarters. As such, some of the attendees may have resided within 25 miles of the
  conference site. We estimate that NASA could have saved $59,898, the total lodging and
  M&IE costs for those 67 attendees, if local participants had not lodged at the conference
  site.

  Conclusion

  Costs for the Procurement Training Conference might have been reduced if NASA had
  selected a conference site closer to a NASA Center and local conference attendees had
  not lodged at the conference location. For future conferences, NASA should carefully
  weigh the benefit of the attendees lodging at the conference site as compared to the cost.

  NASA implemented NID 9312.2 in January 2009, which reminded NASA conference-
  planning officials of the $5 million spending limit on conferences in FY 2009 and
  directed them to minimize conference costs, including M&IE, transportation, and lodging
  costs. This guidance was issued after our sampled conferences had occurred.

  Recommendation, Management’s Response, and Evaluation of
   Management’s Response

  Recommendation 7. We recommended the NASA CFO emphasize to conference
  planners and sponsors the requirements in the NASA FTR Supplement that is now
  included in NPR 9700.1.

         Management’s Response. The Deputy CFO concurred, stating that NASA will
         emphasize the requirements of the NASA FTR Supplement via the Conference
         Resource Web site.

         Evaluation of Management’s Response. Management’s planned action is
         responsive. The recommendation is resolved and will be closed upon completion and
         verification of management’s corrective action.

Finding D: Some Supporting Documentation Not Provided

  During our review, NASA management did not provide all of the requested supporting
  documentation for conference-related activities and expenses. The conference report for

  7
      For December 2008, the GSA M&IE and lodging rates for Baltimore City were $59 and $157,
      respectively. To be conservative, we did not include the 25 percent allowance for lodging costs while at a
      conference. Per the Travel Manager file received, most of the conference attendees incurred
      reimbursement for costs beginning December 7 and ending December 11. We estimate that the average
      cost for M&IE and lodging rates is approximately $894 (75 percent of the M&IE for 2 days, 100 percent
      of the M&IE for 3 days, and 4 nights of lodging costs).
                                                                                               17



the Fundamental Aeronautics Program Annual Conference included $15,138 (out of
$535,149) in conference-related costs for which adequate support, such as invoices, was
not provided. These costs included $578 of contractor travel costs, $6,412 of online
conference registration costs, and $8,148 of costs for which the conference planning team
had no invoices or detailed descriptions of the costs at the time of our analysis.

The Fundamental Aeronautics Program Office of the Aeronautics Research Mission
Directorate, which sponsored the conference, stated that the $15,138 of costs were not
assigned to a specific invoice number but were made up of charges allocated from
multiple invoices. Despite several requests, NASA officials did not provide the
allocation method or invoices for any of the $15,138 of conference-related costs. The
sponsor of the Fundamental Aeronautics Program Annual Conference made efforts to
reconstruct the allocation methodology, but it proved to be a labor-intensive effort.
Because we attempted to complete our analysis in a timely manner, we discontinued
follow-up on these items.

Guidance

Documentation should be readily available for examination. GAO’s “Standards for
Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999)
states:

       Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination.
       The documentation should appear in management directives, administrative policies,
       or operating manuals and may be in paper or electronic form. All documentation
       and records should be properly managed and maintained. [Emphasis added]


Conclusion

NASA conference-planning officials and the contracted event planners have a
responsibility to ensure the availability of conference-related documentation for review by
management or other interested parties, including the OIG. In order to fulfill this
responsibility, all parties involved in conference planning must properly document and
retain support for conference expenses.

Recommendation, Management’s Response, and Evaluation of
 Management’s Response

Recommendation 8. We recommended the NASA CFO direct NASA conference-
planning officials to properly maintain full documentation of conference expenses and
that such documentation is readily accessible for examination.

   Management’s Response. The Deputy CFO concurred, stating that conference-
   planning officials will be directed through the Conference Resource Web site to
                                                                                     18



   properly maintain full documentation of conference expenses and that such
   documentation must be readily accessible for examination.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Mr. Mark Jenson, Financial Statement Audits
Director, at 202-358-0629.


2 Enclosures


cc: Jaiwon Shin
    Associate Administrator for the Aeronautics Research Mission Directorate

    Bill McNally
    Assistant Administrator for Procurement
                              Scope and Methodology
We performed this analysis from September 2009 through February 2010. The analysis
was limited in that we did not follow generally accepted government auditing standards,
as this was not an audit or a review. We also did not test related internal controls but only
identified controls in the conference planning and conference reporting processes. Our
objective was to analyze the FY 2009 quarterly reports of NASA-sponsored conferences
costing more than $20,000 to assess whether NASA complied with requirements of the
Omnibus Appropriations Act of 2009. Specifically, our objective was to determine
whether NASA followed the FTR and NASA internal guidance to minimize conference
costs. We planned and performed the analysis to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our objectives. We performed our analysis at NASA Headquarters.

Scope Limitations. In the prior year, Congress requested that the OIG report on
activities related to conferences with costs exceeding $20,000. We determined an audit
was appropriate to satisfy the requirements imposed on the OIG last year. In the current
year, Congress again requested we analyze the conference reports. Our procedures over
the current year NASA-sponsored conferences with costs exceeding $20,000 were limited
to an analysis. We believe limiting our procedures to an analysis, rather than an audit, is
appropriate to meet the requirements of the Act and to produce a timely product, in light
of NASA’s late submission of quarterly reports.

As of August 7, 2009, NASA provided data on the conferences with costs exceeding
$20,000 for the first quarter of FY 2009 (October–December 2008). NASA reported that
no conferences occurring in the second quarter of FY 2009 (January–March 2009) were
reportable. As of December 31, 2009, NASA had not provided conference reports for the
third and fourth quarters of FY 2009 (April–September 2009). Our analysis of the
quarterly conference reports was due October 1, 2009, to the House and Senate
Appropriations Committees. The timing of NASA’s submission of the data for the first
quarter of FY 2009 and the failure to provide data for the conferences occurring during
the third and fourth quarters of FY 2009 precluded the OIG from performing the analysis
over the full fiscal year, creating a scope limitation in our planned procedures.
Additionally, the timing of NASA’s submission resulted in a delay in the submission of
this report to the House and Senate Appropriations Committees.

To ensure completeness of our population, we examined the reportable conferences from
the first and second quarters of FY 2008 and determined whether those conferences were
also held in FY 2009. The NASA Project Managers (PM) Challenge 2009 occurred
February 24 and 25, 2009, but no conference report was provided to the OIG as of
December 31, 2009. The NASA PM Challenge 2008 incurred costs of $848,173;
therefore, we inquired about the reporting of this conference and found that the NASA
Office of the General Counsel had determined that this event no longer meets the criteria


                                                                                Enclosure 1
                                                                                Page 1 of 3
of a reportable conference, as it is an internal NASA meeting. NASA internal meetings
are not defined as conferences. None of the other conferences reported in the first and
second quarters of FY 2008 were held in the first or second quarter of FY 2009.

Regulations, Policies, and Procedures. To determine whether NASA conducted the
reported conferences in accordance with Federal regulations and NASA policies and
procedures, we reviewed the following laws, regulations, policies, and procedures:

   •   Public Laws
       o National Aeronautics and Space Administration Authorization Act of 2008
         (Public Law 110-422), October 15, 2008
       o Conference Report of the Omnibus Appropriations Act of 2009 (Public Law
         111-8)
       o Consolidated Appropriations Act of 2008 (Public Law 110-161),
         December 19, 2007

   •   Federal Guidance
       o Federal Travel Regulation, Chapter 301, “Temporary Duty (TDY) Travel
         Allowances,” January 2004 and the FTR updates through July 2009;

   •   NASA Policies and Procedures
       o Administrator Memorandum, “Planning Agency-Sponsored Events,”
         November 16, 2005;
       o NASA Financial Management Requirements, § 301-11, Per Diem Expenses,
         and § 301-74, Conference Planning, December 2007;
       o CFO Memorandum, “New Conference Reporting Requirement,” January 24,
         2008, replaced by NASA Interim Directive, 9312.2;
       o NASA Procedural Requirements, 9700.1, Travel, September 30, 2008; and
       o NASA Interim Directive, 9312.2, Requirements Relating to Conference
         Attendance, Obligations, and Expenditures; January 12, 2009.

Computer-Processed Data

During the analysis, we relied on computer-processed data provided to us by NASA
personnel for our review and analysis. The data sources include data in Excel
spreadsheets and PDF files that NASA OCFO generated out of the following systems and
provided to us for our review:

   •   Travel Manager




                                                                             Enclosure 1
                                                                             Page 2 of 3
   •   SAP [Systems, Applications, and Products]/Business Warehouse

   •   SATERN [System for Administration, Training, and Educational Resources for
       NASA]

During the analysis, we remained alert as to any instances that may have come to our
attention that would warrant us to believe that any of the data to be unreliable. Any
instances of data we were examining not appearing valid were noted explicitly in the
body of this memorandum.

Internal Controls

We identified internal controls associated with planning the conferences to ensure that
NASA obtained adequate competition and that management selected the conference site
in accordance with Agency guidance. We also obtained an understanding of the internal
controls associated with the accuracy and reliability of travel vouchers. We did not
directly test the effectiveness of controls associated with conference reporting.

Prior Coverage

During the last 5 years, the OIGs for NASA, the Department of Justice, and the
Department of Homeland Security have issued three reports of particular relevance to the
subject of this memorandum. Unrestricted reports can be accessed over the Internet at
http://oig.nasa.gov/audits/reports/FY09 (NASA),
http://www.justice.gov/oig/reports/plus/a0742/final.pdf (Justice), and
http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_04_46.pdf (Homeland Security).

National Aeronautics and Space Administration

“NASA’s Conference Planning Process Needs Improvement” (IG-09-002, October 29,
2008)

Department of Justice

“Department of Justice Conference Expenditures” (Audit Report 07-42, September 2007)

Department of Homeland Security

“Assessment of Expenditures Related to the First Annual Transportation Security
Administration Awards Program and Executive Performance Awards” (OIG-04-46,
September 2004)




                                                                              Enclosure 1
                                                                              Page 3 of 3
Management’s Comments




                        Enclosure 2
                        Page 1 of 5
Enclosure 2
Page 2 of 5
Enclosure 2
Page 3 of 5
Enclosure 2
Page 4 of 5
Enclosure 2
Page 5 of 5
